                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington. D.C. 20230




July 27, 2010

MEMORANDUM

TO:                    Kristine Lee Leiphart, Deputy Assistant Secretary
                        for Regional Affairs
                       Economic Development Administration

                       Laura Cesario, Chief
                       National Institute of Standards and Technology
                       Grants and Agreements Management Division

                       Gary Johnson, Director
                       Office of Acquisition Management
                       Commerce Grants Management Division

                       Arlene S. Porter, Chief
                       Grants Operations Branch
                       National Oceanic and Atmospheric Administration
                       Grants Management Division



FROM:	
                       Principal
                                         , 1M
                                ASSiSt~spector
                       Ann C. Eilers          t SkrsGeneral for Audit and Evaluation

SUBJECT:	              Closeout of Audit of Departmental Grants Management Oversight
                       Efforts to Prevent and Detect Fraud (STL-19228)


This memo is to advise you that the Office of Inspector General has terminated the audit of the
Departmental Grants Management Oversight Efforts to Prevent and Detect Fraud in order to
focus our attention on other grants management oversight operations.

Our office issued two reviews related to grants management oversight in October 2009 and
March 2010:

      •	 NIST Construction Grants and NOAA Habitat Restoration Grants Are Competitively
         Awarded but Improvements Are Recommended/or NIST's Selection Documentation,
         NOAA's Management 0/Applicant Risk, and Commerce's Pre-Award Guidance on
         Background Checks, ARR-19841, October 2009; and
      •	 Missing Audit Reportsfrom NIST ATP Grant Recipients, ATL-19891, March 2010.
Additionally, we have recently started an audit to review American Recovery and Reinvestment
Act of 2009 grant fraud prevention and detection strategies for EDA, NIST, NOAA, and NTIA.
We would like to thank you and your staff for your cooperation during the course of this audit. If
you have any questions, please contact David Sheppard, Regional Inspector General-Seattle, at
(206) 220-7967.


cc:	   Joshua Barnes, Audit Liaison, EDA
       Mack Cato, Audit Liaison, NOAA
       Helen Hurcombe, Senior Procurement Director and Director, Office of Acquisition
         Management

       Rachael Kinney, Audit Liaison, NIST

       Robert E. Olson, Denver Regional Director, EDA

       Philip Paradice Jr., Atlanta Regional Director, EDA

       Patricia A. Rauch, Audit Specialist, NOAA Grants Management Division

       Leonard Smith, Seattle Regional Director, EDA

